Final Inspection Report 06-04, March 31, 2006, “Inspection of GPO’s Continuity
of Operations Plan”


In response to a recommendation from the Inspections and Evaluations
Roundtable of the President’s Council on Integrity and Efficiency and Executive
Council on Integrity and Efficiency, the GPO Office of the Inspector General
(OIG) performed an inspection of GPO’s plans for continuing operations of its
essential functions in the event of a major disaster or emergency. The roundtable
recommended that OIGs review their respective agency’s disaster and emergency
preparedness (DEP) and continuity of operations (COOP) plans.

The objective of the inspection was to evaluate GPO’s existing processes,
procedures, and authorities against Federal Government best practices for
maintaining essential functions in the event of a natural disaster or other
significant event. Specifically, we evaluated GPO’s COOP plan against the
Federal Emergency Management Agency’s (FEMA) Federal Preparedness
Circular (FPC) 65, “Federal Executive Branch Continuity of Operations.” FPC
65 serves as the model for best practices within the Federal Government.

The OIG issued a sensitive report which made recommendations to improve
GPO’s plans and procedures to reasonably ensure a viable COOP capability in the
event of a disaster or other significant event. GPO management concurred with
each of the report’s recommendations. The actions planned by management
generally provide the initial framework to establish and maintain a viable COOP
plan in the event of a major disaster or emergency.
